OFFICE OF AUDIT
FINANCIAL AUDIT DIVISION
WASHINGTON, DC




    U. S. Department of Housing and Urban Development,
                      Washington, DC

    Compliance With the Improper Payments Elimination
                and Recovery Act of 2010




2013-FO-0005                               MARCH 15, 2013
                                                        Issue Date: March 15, 2013

                                                        Audit Report Number: 2013-FO-0005




TO:            David Sidari, Acting Chief Financial Officer, F
                      /s/
FROM:          Thomas R. McEnanly, Director of Financial Audits Division, GAF


SUJECT:        HUD’s Compliance With the Improper Payments Elimination and Recovery Act
               of 2010


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG) final results of our review of HUD’s compliance with the Improper
Payments Elimination and Recovery Act of 2010.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
202-402-8216.
                                         Date of Issuance: March 15, 2013
                                         HUD’s Compliance With the Improper Payments
                                         Elimination and Recovery Act of 2010




Highlights
Audit Report 2013-F0 -0005


 What We Audited and Why                       What We Found

We conducted an audit of the U.S.             While HUD generally complied with IPERA it
Department of Housing and Urban               did not meet all of the law’s objectives. The
Development’s (HUD) fiscal year 2012          Office of Chief Financial Officer’s (OCFO) and
compliance with the Improper Payments         Federal Housing Administration’s (FHA) risk
Information Act of 2002 as amended by         assessment processes need significant
the Improper Payments Elimination and         modifications to improve their performance in
Recovery Act of 2010 (IPERA). The             identifying and reducing improper payments.
statute was enacted to prevent the loss of    Specifically, the design of the OCFO’s and
billions in taxpayer dollars due to           FHA’s risk assessment methodology had
improper payments by requiring the            weaknesses that limited their ability to identify
agency to identify and report on its          programs and activities susceptibility to improper
programs and activities that are              payments.
susceptible to significant improper
payments. IPERA also requires each            Additionally, the Office of Multifamily Housing
agency’s inspector general to perform an      did not meet two supplemental measure target
annual review of the agency’s compliance      goals. Further, a lack of reliable data in the
with IPERA. Our audit objectives were         Enterprise Income Verification system hindered
to (1) determine whether HUD complied         management’s ability to accurately measure and
with IPERA in accordance with the             reduce improper payments.
guidance prescribed by the Office and
Management and Budget (OMB) and (2)
assess the accuracy, completeness of
reporting, and performance of HUD in
reducing and recapturing improper
payments.

 What We Recommend

 We recommend that HUD program
 officials address the deficiencies in the
 program risk assessment design
 methodology and strengthen their
 controls and monitoring efforts to reduce
 improper payments in rental housing
 assistance programs.
                           TABLE OF CONTENTS

Background and Objectives                                                    3

Results of Audit
      Finding 1: Weaknesses in HUD’s IPERA Risk Assessment Methodologies Were
                 Identified                                                   5
      Finding 2: Multifamily Housing Did Not Accurately Measure or Enforce
                 Compliance With Its Supplemental Measures                   12

Scope and Methodology                                                        15

Internal Controls                                                            16

Follow-up on Prior Audits                                                    17

Appendix
      Auditee Comments and OIG’s Evaluation                                  18




                                           2
                        BACKGROUND AND OBJECTIVES
The Improper Payments Information Act of 2002 (IPIA) required the head of each agency to
annually review all programs and activities it administered, identify all such programs and
activities that might be susceptible to significant improper payments, and report estimated
improper payments for each program or activity identified as susceptible. For programs with
estimated improper payments exceeding $10 million, IPIA required agencies to report the causes
of the improper payments, actions taken to correct the causes, and the results of the actions
taken. IPIA was amended in July 2010 by the Improper Payments Elimination and Recovery Act
(IPERA). IPERA increased the Federal agencies’ responsibilities and reporting requirements to
reduce and eliminate improper payments and required each agency inspector general to
determine whether the agency complied with IPIA. The Office of Management and Budget
(OMB) issued Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, to provide implementation guidance for agencies.

The U.S. Department of Housing and Urban Development’s (HUD) Secretary designated the
Chief Financial Officer as the lead official for overseeing HUD actions to address improper
payment issues and bringing HUD into compliance with the requirements of IPERA. The
responsibility for conducting an agencywide IPERA program risk assessment is jointly shared by
the Federal Housing Administration’s (FHA) Office of Finance and Budget and HUD’s Office of
the Chief Financial Officer (OCFO). FHA’s Office of Finance and Budget is responsible for
conducting a risk assessment of its loan guarantee programs. OCFO’s Financial Management
Division is responsible for conducting risk assessments of all other HUD programs. Historically,
none of the FHA programs have been determined to be susceptible to improper payments.

OCFO identified and reported in its annual agency financial reports several HUD programs that
are susceptible to significant erroneous payments, such as the Community Development Block
Grant (CDBG) entitlement and State or small cities programs (CDBG program) and public
housing, tenant-based voucher, and project-based assistance programs (collectively referred to as
HUD’s rental housing assistance programs. Program beneficiaries pay 30 percent of their
adjusted income as rent, and HUD payments cover the remainder of the rental cost (or the
operating cost in the case of public housing). Except for the CDBG program (excluded from
annual improper payment reporting since March 20071), HUD has continued to report improper
payments for rental housing assistance programs.

HUD has identified the following three sources of errors and improper payments in rental
housing assistance programs:

       Program administrator error – The program administrator’s failure to properly apply
        income exclusions and deductions and correctly determine income, rent, and subsidy
        levels;


1
  HUD found that in 2 consecutive years, CDBG improper payments were below the $10 million threshold. On
March 24, 2007, OMB approved HUD’s request for relief from annual improper payment reporting for those
programs.


                                                     3
        Tenant income reporting error – The tenant beneficiary’s failure to properly disclose all
         income sources and amounts upon which subsidies are determined; and
        Billing error – Errors in the billing and payment of subsidies due between HUD and third-
         party program administrators or housing providers.

Before IPIA, HUD established the Rental Housing Improvement Integrity Project (RHIIP)2 to
reduce improper payments estimated to be $3.2 billion in 2000. In 2010, HUD implemented
supplemental measures to comply with IPERA and Executive Order 13520. Executive Order 13520
required agencies to provide their inspector general the Accountable Official Report describing (1)
the agency’s methodology for identifying and measuring improper payments; (2) the agency’s
plans, together with supporting analysis, for meeting the reduction targets for improper payments in
the agency’s high-priority programs susceptible to improper payments; and (3) the agency’s plans,
together with supporting analysis, for ensuring that initiatives undertaken pursuant to the Order do
not unduly burden program access and participation by eligible beneficiaries.

In consultation with OMB, HUD developed supplemental measures to track and report on
intermediaries’ efforts in addressing improper payments. HUD provided the details of these
supplemental measures in its Accountable Official Report to the Office of Inspector General (OIG)
as required. All of HUD’s supplemental measures are reported quarterly on OMB’s payment
accuracy Web site.

HUD has made substantial progress in reducing erroneous payments, from an estimated $3 billion
in fiscal year 2000 to $1.23 billion in fiscal year 2011. HUD calculated its estimated annual
improper payment amount using a quality control study, an income match study, and a billing study,
conducted by independent contractors. These studies were conducted using data from the prior
fiscal year.

Our audit objectives were to (1) determine whether HUD complied with IPERA in accordance
with the guidance prescribed by OMB and (2) assess the accuracy, completeness of reporting,
and performance of HUD in reducing and recapturing improper payments.




2
  RHIIP was implemented to reduce errors in subsidy calculations of tenant rents by verifying the tenants’ income
and employment using HUD’s Enterprise Income Verification (EIV) system or third-party verification letters. Most
importantly, it implemented rental integrity monitoring, consisting of ongoing quality control monitoring reviews, to
determine whether and to what extent public housing authorities and administrators accurately, thoroughly, and
clearly determined family income and rent for the purpose of reducing subsidy errors. The plan, completed in 2009,
resulted in a substantial reduction in improper payments in rental housing assistance programs.

                                                         4
                                       RESULTS OF AUDIT


Finding 1: Weaknesses in HUD’s IPERA Risk Assessment
Methodologies Were Identified
The departmentwide risk assessment3 methodology for identifying and reporting on risk-
susceptible programs had design flaws so that it did not adequately and identify programs that
are risk susceptible. This condition occurred because FHA focused its risk analysis on internal
control over disbursements rather than analyzing and measuring the impact of lender compliance
risk. The OCFO risk assessment’s design did not adequately assess the risk of improper
payments in HUD’s other programs. Additionally, OCFO had not reevaluated its risk
assessment design since it was implemented 10 years ago. Because of these weaknesses, HUD
may not have identified all high-risk programs that truly need management’s attention and
achieved all of IPERA’s objectives.


    FHA’s Risk Assessment
    Methodology Could Be
    Strengthened

                  FHA’s risk assessment methodology did not fully consider the impact of certain
                  significant risk factors, such as the other management findings and OIG audit
                  report findings. In accordance with OMB Circular A-123, appendix C, part I,
                  section (A)(7), in conducting a qualitative risk assessment, the agency should
                  consider risk factors4 such as other relevant management findings or agency
                  inspector general audit report findings that could likely contribute to significant
                  improper payments. FHA relies on thousands of lenders to conduct its business,
                  and the deficiencies cited in FHA’s internal management reports and OIG audit
                  reports regarding the issue of lender compliance provide relevant information on
                  the susceptibility of FHA programs to improper payments. OMB Circular A-123,
                  appendix C, part I, section (A)(6), defines an improper payment for the loan
                  guarantee program as any disbursement made to an intermediary or third party for
                  defaults that do not comply with law, program regulations, or agency policy.
                  Under FHA’s direct endorsement program, lenders are given the responsibility of
                  ensuring that all loans approved for mortgage insurance meet FHA’s applicable


3
  The responsibility for conducting the agencywide IPERA program risk assessment is jointly shared by FHA’s
Office of Finance and Budget and OCFO. FHA’s Office of Finance and Budget performs risk assessments of its
programs. OCFO’s Financial Management Division performs departmentwide risk assessments of all other HUD
programs.
4
  Risk factors or risk conditions are factors that are considered relevant when determining susceptibility of improper
payments within a program. An example of a risk condition would be program deficiencies cited in OIG audit
reports.

                                                          5
                 requirements. Loans that do not meet FHA’s requirements are ineligible for FHA
                 insurance.

                 As noted above, the lender compliance issue has a significant impact on the
                 IPERA risk assessment. Accordingly, FHA’s evaluation of improper payment
                 risks should take the following risk conditions into consideration:

                 FHA’s Internal Management Reports

                        The FHA Quality Assurance Division’s lender monitoring reviews showed
                         that 92 and 95 percent of the lenders targeted for review in fiscal years
                         2011 and 2012, respectively, had varying levels of underwriting and
                         servicing compliance issues that resulted in a review finding or Mortgagee
                         Review Board referral. The Office of Finance and Budget did not obtain
                         these reports when performing its analysis. The success of FHA’s
                         mortgage insurance program assumes substantial lender compliance with
                         FHA requirements from its lenders. However, a vast majority of FHA-
                         approved lenders reviewed by the Quality Assurance Division were found
                         noncompliant in fiscal years 2011 and 2012 based on the results of FHA’s
                         monitoring reviews. FHA’s approach for monitoring lenders is risk based
                         so that all FHA-approved lenders would not be subject to such reviews;
                         however all lenders selected had indicators of noncompliance.
                            Table 1. FHA lender compliance review results for fiscal years 2011 and 2012

                                   Lender compliance reviews                          2012          %     2011   %
                              No. of lenders reviewed with findings                     252         92%    273   95%
                              No. of lenders found without findings                       23        8%      15    5%
                              Total number of lenders reviewed                          275     100%       288   100%
                              Source: Office of Single Family Housing, Quality Assurance Division


                 OIG Audit Reports and Other Risk Conditions Identified

                        We identified a total of 38 audit reports and memorandums5 issued in
                         fiscal years 2011 and 2012 that specifically addressed the issue of lender
                         compliance. Of the 38 reports issued, 34 determined significant
                         compliance findings related to the lenders’ loan origination and
                         underwriting and servicing activities.6 Overall, the OIG findings
                         supported systemic problems with the lenders, including four of FHA’s
                         largest originators or servicers of FHA-insured loans (Wells Fargo, Bank
                         of America, Citi Mortgage, and Flag Star). Most notably, in four of the
                         memorandums identified,7 OIG determined that the lenders’ loan
                         origination and underwriting practices did not fully comply with FHA’s

5
  The transaction period covered in these audit reports was from January 2002 to February 2012.
6
  The 34 OIG audit reports are broken down as follows: 27 origination and underwriting and 7 servicing.
7
  The four OIG audit memorandums are 2012-CF-1809, 2012-CF-1810, 2012-CF-1811, and 2012-CF-1814.

                                                            6
                          requirements, which resulted in HUD’s receiving a total of $958.1 million
                          in court settlements from these lenders.8 Additionally, in fiscal year 2012,
                          OIG conducted a nationwide audit of nine lenders with the highest volume
                          of preforeclosure sales.9 OIG estimated that FHA had paid $1.06 billion
                          in claims for 11,693 loans out of 16,976 in paid claims (68 percent) that
                          were not eligible for mortgage insurance benefits because they failed to
                          meet the criteria for participation in the program.

                         Since 2008, the surge in the volume of seriously delinquent loans10 in
                          FHA’s servicing portfolio and the lack of focus on servicer reviews
                          indicated emerging risks that FHA should have considered in its risk
                          assessment. The volume of seriously delinquent loans in FHA’s servicing
                          portfolio had increased more than 200 percent and had been steadily
                          increasing. The Quality Assurance Division completed 60 servicer
                          reviews, representing 14 percent of FHA’s servicing portfolio, but this
                          lack of focus on servicer reviews was not factored into the risk assessment
                          methodology.

                 The risk conditions listed above were not considered in the FHA-wide risk
                 assessment due to a lack of coordination with the Quality Assurance Division and
                 other program offices within FHA that may conduct reviews or address OIG audit
                 reports. The coordination would allow consolidation of various issues with a
                 specific lender to ensure that an appropriate lender risk profile was established for
                 monitoring purposes. A program official from FHA stated that the lender
                 compliance risk had no direct impact on improper payments.

                 Additionally, the scope of FHA’s risk analysis was limited to a review of FHA’s
                 internal controls over disbursements, which was not an area posing the highest
                 risk of improper payment to FHA. OMB Circular A-123, appendix C, part I,
                 section (A)(9), requires agencies to focus their sampling and testing on individual
                 components or transaction points of their programs for the areas posing the
                 highest risk of improper payment. The success of FHA’s mortgage insurance
                 assumes substantial lender compliance with its requirements, but as noted earlier,
                 given the history of lender noncompliance, ensuring lender compliance is just as
                 important as ensuring effectively designed and implemented internal controls over
                 disbursements.

                 The continuing identification and participation of noncompliant lenders made
                 FHA programs more susceptible to fraud, waste, and abuse and increased the
                 likelihood of improper payments. Changing FHA’s risk assessment methodology

8
  On the basis of OIG’s review, the four lenders agreed to settle the Federal Government’s complaint out of court.
As part of the settlement, three of the four lenders (Deutsche Bank, CitiMortgage, and FlagStar) admitted,
acknowledged, and accepted responsibility for certain conduct alleged in the Government’s complaint. The fourth
lender, Bank of America, settled without admitting to the allegations of the complaint.
9
  Audit report 2012-KC-0004
10
   The volume of seriously delinquent loans increased from 295,068 in 2008 to 738,991 in 2012.

                                                         7
                  to include the impact of lender compliance risk would provide a better risk
                  assessment of FHA programs overall.

     Weaknesses in OCFO’s Risk
     Assessment Methodology Were
     Identified

                  We reviewed in detail the design and methodology of OCFO’s risk assessment
                  process for evaluating the improper payment risk susceptibility of 38 HUD grant
                  and subsidy programs. Overall, OCFO’s risk assessment methodology had design
                  flaws that could significantly impact the completeness and accuracy of the risk
                  assessment results. Specifically, the following inherent limitations and
                  weaknesses in the design of HUD’s risk assessment methodology precluded
                  OCFO from accurately and adequately identifying high-risk programs. We
                  recommend strengthening the following areas:

                          OCFO’s risk assessment design did not assess each risk factor separately;
                           instead, it combined the risk weight of all risk factors into one overall risk
                           rating, which could allow low-rated risk factors to mask the impact of
                           high-rated risk factors. If one or more of the internal control risk factors
                           were assessed a high risk while others were rated low, the weighted
                           averaging11 would reduce the severity of the control risk factors’ impact.
                           Specifically, if the quality of monitoring controls and the quality of
                           external payment processing at the grantee level were considered high
                           risk, they could reach the threshold for a high-risk program if considered
                           independently. However, because they were weighted with the other, less
                           significant risk factors, their significance was diminished.




11
   For example, in calculating the overall risk rating assessment for CDBG programs, the weighted sum of the risk
factors and program expenditure materiality were assigned an 80 and 20 percent weight of the total score,
respectively. To determine the 80 percent risk factor score, a secondary risk weight was assigned to each of the risk
factors, and the risk level was assessed based on predetermined criteria. The predetermined criteria were based on a
risk matrix tool that was created by a HUD contractor and had not been reevaluated or updated since it was
developed 10 years ago The risk assessment methodology requires assigning to each risk factor a score of 1 through
5, with 5 being the highest risk.

                                                         8
                 Table 2. Example of Risk Assessment Matrix for CDBG Programs
                  CPD: CDBG Programs                                                    Entitlement
                                                           Grants
                                                            Type
                                                           Weights      Frequency        Risk Level
                  Type of Risk                               %          Weights %           1-5
                  1. Internal Controls:
                    Quality of Monitoring Controls               20%                                3
                    Quality of Internal Payment
                  Processing Controls                            15%                                2
                    Quality of External Payment
                  Processing Controls at the Grantee
                  Level                                          15%                                4
                  2. Human Capital Risk                          15%                                3
                  3. Programmatic
                    Age of Program                                5%                                1
                    Complexity of Program                        15%                                1
                     Nature of Program Recipients                15%                                3
                  Subtotal for the frequency of all
                  risk factors. Weight is lowered to
                  80% to calculate the overall score.           100%            80%               2.6
                  Severity of the Risk: Materiality of
                  the expenditure.                                              20%                 5
                  Overall Score *                                             100%                  3.1
                  * An overall risk score greater than 3.5 is required to qualify for statistical sampling.
                  Source: FY 2012 Final IPIA Risk Assessment Matrices

                          The guidelines and criteria used by OCFO for determining the appropriate
                           level of risk based on a given risk condition were set too high, thus
                           undermining the true impact of the deficiencies. The criteria focused on
                           the number of instances rather than severity of the issues. Also, based on
                           the threshold and weights assigned it would be nearly impossible for a
                           truly high-risk condition to achieve a high-risk rating overall. For
                           example, to achieve the highest risk rating of “5” in the CDBG program
                           for the risk factor entitled Quality of External Payment Processing
                           Controls at Grantee Level, both of the following conditions would have to
                           be met: (1) over a 60 percent average of the single audit clearinghouse
                           statistics12 from the single audit data and (2) more than five U.S.
                           Government Accountability Office or inspector general reports citing
                           relevant issues.

                           With regard to the first requirement, single audit data statistics were
                           averaged together. 13 By averaging them together, the significance of the

12
   The single audit clearinghouse statistics categories include (1) reportable conditions, (2) material weaknesses, (3)
material noncompliance, (4) low risk, and (5) questionable costs.
13
   The 60 percent threshold is calculated as an average of the risk categories obtained from the fiscal year 2010
single audit clearinghouse statistics. The average was calculated as follows: (1) reportable conditions – 46 percent,

                                                           9
                           individual risk categories, particularly reportable conditions and material
                           weaknesses, were masked. In addition, the 60 percent average threshold
                           was too high because the impact of each risk category included in the
                           single audit clearinghouse statistics was not complementary and using the
                           averaging method could obscure the true risk of the program. With regard
                           to the second requirement, the severity of the issues in the audit reports
                           (quality) and not the number of audit reports (quantity) should matter in
                           the risk assessment.

                          The risk factor weighting for the two HUD programs marked “Not
                           Applicable” was not redistributed to account for 100 percent of the risk
                           weights. This limitation would make it harder for the applicable programs
                           to achieve a risk rating that is appropriate for its risk condition.

     Table 3. Example of Risk Assessment Matrix for Administrative Cost Programs
                                                             HSG: EHLP - PIH: Tenant-Based
                                                              Program Acct     Rental Assistance:
                                                                     -        Section 8 Contract
      Administrative Cost             Grants                 Administrative     Administration
      “Programs”                       Type                       Costs               Fees
                                     Weights Frequency          Risk Level        Risk Level
      Type of Risk                      %       Weights %           1-5               1-5
      1. Internal Controls:
        Quality of Monitoring
        Controls                                15%                                  2                      1
        Quality of Internal Payment
        Processing Controls                     20%                                  2                      2
        Quality of External Payment
        Processing Controls at the
        Grantee Level                           10%                                  0                      0
      2. Human Capital Risk                     20%                                  2                      4
      3. Programmatic
         Age of Program                          5%                                  5                      4
         Complexity of Program                  10%                                  0                      0
        Nature of Program Recipients            20%                                  2                      0
      4. Subtotal for the frequency of
      all risk factor. Is lowered to 80%
      to calculate the overall score.         100%            80%
      5. Severity of the Risk:
      Materiality of the expenditure.
      The expenditure materiality
      represents 20% of the overall
      total.                                                  20%
      Overall Score                                      100%                      1.6                    2.2
     Source: FY 2012 Final IPIA Risk Assessment Matrices



(2) material weaknesses – 36 percent, (3) material noncompliance – 7 percent, (4) low risk – 29 percent, and (5)
questionable costs – 26 percent; 46+36+7+29+26 = 144/5 categories = 28.8% average.

                                                         10
             As a result of the issues described above, OCFO’s risk assessment process could
             better evaluate its programs. This condition occurred because OCFO had not
             reviewed its risk assessment methodology since its implementation in 2003 to
             reflect changes to risk factors and operating conditions. Over time and as a result
             of new guidance, the inherent limitations and weaknesses in the design of
             OCFO’s risk assessment methodology may have put HUD in a situation in which
             it did not effectively identify and report its high-risk programs.

Conclusion

             IPERA requires the agency to conduct a program risk assessment of all programs
             and activities that the agency administers to identify and report on high-risk
             programs. FHA’s risk assessment methodology could be strengthened by the
             consideration of lender review results in assessing its programs’ susceptibility to
             improper payments. The OCFO’s risk assessment methodology needs significant
             modifications to improve their performance in identifying and reducing improper
             payments. HUD’s process may not adequately and accurately identify programs
             that are risk susceptible. To improve its analysis, HUD needs to ensure that
             necessary steps are taken to address the limitations and weaknesses in its risk
             assessment design methodologies.


Recommendations

             We recommend that the FHA comptroller

             1A. Consolidate the results of various monitoring reviews or lender compliance
             reviews by coordinating with the appropriate program offices within FHA and
             incorporate the results of these reviews in its risk assessment going forward.

             1B. Assess FHA program risk susceptibility for fiscal year 2013 by incorporating
             the impact of OIG’s audit report findings and other management findings related
             to the issue of lender compliance.

             We recommend that the Acting Chief Financial Officer

             1C. Review and revise the risk assessment design methodology by assigning the
             appropriate risk factor weights and grouping some of the risk factors, based on
             their significance, independently rather than combining them into one overall risk
             score. Ensure adequate documentation is maintained to support the basis of the
             revised methodology

             1D. Apply the updated risk assessment methodology for fiscal years 2013 and
             beyond.



                                              11
Finding 2: Multifamily Housing Did Not Accurately Measure or
Enforce Compliance with its Supplemental Measures

The Office of Multifamily Housing Programs did not meet its Enterprise Income Verification
(EIV) system access rate or EIV usage rate supplemental measure target goals. EIV system
limitations hindered its ability to accurately measure its supplemental target goals. Multifamily
Housing spent valuable time verifying the EIV reports, and it could not accurately measure its
EIV usage rate. The time spent verifying EIV reports and collecting data for its usage rate
calculation could have been better spent enforcing compliance with Multifamily Housing’s
supplemental measures.


 System Limitations Hindered
 Multifamily Housing’s Ability
 to Measure its Supplemental
 Target Goals


               According to HUD’s Accountable Official Report, to reduce improper payments,
               Multifamily Housing developed four supplemental measures. Multifamily
               Housing’s four supplemental measures and goals for fiscal year 2012 were as
               follows:

                   1. EIV access rate - Increase the number of owners and management agents
                      with access to EIV to 97.7 percent.
                   2. EIV usage rate - Increase the number of owners and management agents
                      using the system to 93.6 percent.
                   3. Failed identity verification rate - Decrease the number of failed identity
                      verifications to less than 32,958.
                   4. Deceased single-member households - Decrease payments to the
                      deceased, so that no more than 533 deceased single-member households
                      are paid.

               Multifamily Housing did not meet its EIV access rate or EIV usage rate target
               goals. Further, due to EIV system limitations, Multifamily Housing could not
               accurately measure its usage rate.

               According to Multifamily Housing, the reports from the EIV system were
               unreliable, and several system enhancements were needed to provide accurate
               data. Since the EIV system was not initially designed to incorporate Multifamily
               Housing’s data elements, the EIV reports contain duplicates and in some cases,
               inaccurate data because all fields are not properly defined to allow EIV to pull the
               correct information from HUD’s Tenant Rental Assistance Certification System
               (TRACS). For the past 2 years, Multifamily Housing had been working with the
               EIV contractor to resolve these issues. The complexity of the request, previous

                                                12
                 funding issues, and a change in EIV’s management team in May 2012 contributed
                 to the delays in resolving these issues. However, according to the EIV contractor,
                 the upcoming April release will reflect the new structure to address Multifamily
                 Housing’s issues. Since Multifamily Housing was not given the opportunity to
                 test this release, it could not be certain that the updated EIV system would address
                 the underlying problems.

                 Since the EIV system produces unreliable data, Multifamily Housing performed
                 additional manual procedures to verify the EIV reports against TRACS. During
                 the verification process, Multifamily Housing’s EIV team identified and removed
                 duplicates and false positives to determine its supplemental measure rates.
                 However, for the EIV usage rate, Multifamily Housing could not rely on the EIV
                 system at all.

                 To determine the usage rate, Multifamily Housing’s EIV team sent an email to all
                 hub directors requesting the number of management occupancy reviews
                 conducted and the number of owners and management agents that were found not
                 to be using the EIV system during the reviews. The percentage was based only on
                 these two numbers. Through this method, Multifamily Housing collected data for
                 4,212 properties; however, according to the support Multifamily Housing
                 provided to determine its EIV access rate, there were approximately 24,000
                 properties in the Multifamily Housing portfolio. The remaining 19,787 properties
                 were not considered in the usage rate calculation because there was no system in
                 place to verify that users had accessed the system. Additionally, there were no
                 follow-up procedures for hubs that did not respond to the email or verification of
                 the numbers hubs provided.

                  Multifamily Housing Did Not
                  Adequately Enforce
                  Compliance or Update its
                  Guidance

                 The time Multifamily Housing spent verifying EIV reports and collecting data for
                 its EIV usage rate could have been better used to enforce owner and contract
                 administrator compliance with its supplemental measures. Multifamily Housing’s
                 EIV team did not have follow-up procedures in place to hold noncompliant
                 owners and contract administrators accountable for noncompliance with
                 Multifamily Housing supplemental measures. According to Housing Notice H-
                 2011-21,14 penalties were imposed only during management occupancy reviews,
                 which we determined were conducted for only approximately 18 percent of
                 properties in fiscal year 2012.



14
 Notice H-2011-21, Enterprise Income Verification (EIV) System, was issued on August 17, 201l, and expired on
August30, 2012. The 2013 notice was in the clearance process.

                                                     13
             In addition to the lack of follow-up and enforcement, Multifamily Housing’s EIV
             team did not update all of its guidance to require use of the EIV system. The Rent
             and Income Determination Quality Control Monitoring Guide for Multifamily
             Programs on Multifamily Housing’s RHIIP Initiative Web site was last updated in
             2008, and it did not require the use of the EIV system. In the fiscal year 2012
             Accountable Official Report, Multifamily Housing noted that the Guide was a
             tool for HUD staff and contract administrators to use when conducting onsite
             management occupancy reviews. In the report, Multifamily Housing noted that
             the Guide had been revised.

Conclusion

             The lack of reliable data in the EIV system hindered management’s ability to
             accurately measure its supplemental target goals and reduce improper payments.
             Without enforcement measures, owners and contract administrators had no
             incentive to use the EIV system or reduce improper payments. By not adequately
             measuring and enforcing compliance with its supplemental measures, Multifamily
             Housing did not sufficiently hold appropriate officials accountable for reducing
             improper payments.

Recommendations

             We recommend that the Director of the Office of Housing Assistance and Grant
             Administration

             2A. Perform user acceptance testing of the modifications made to the EIV system
             certifying that the release deployed met Multifamily Housing requirements for
             reducing improper payments.

             2B. Develop and implement formal procedures to (1) determine the cause of
             noncompliant owners and management agents listed on the EIV reports and (2)
             impose penalties on owners and management agents identified and verified as
             noncompliant.

             2C. Update all guidance on the RHIIP Initiative Web site to clearly indicate the
             mandatory use of the EIV system by owners and management agents and ensure
             its implementation.




                                             14
                         SCOPE AND METHODOLOGY

We conducted an audit of HUD’s fiscal year 2012 compliance with the reporting requirements of
IPIA, as amended by IPERA, and Executive Order 13520, Reducing Improper Payments. This
review included analyzing the fiscal year 2012 quality control study and income match study of
certain fiscal year 2011 payments and fiscal year 2012 improper payment risk assessments.
OMB Circular A-123, appendix C, parts I and II, provide guidance on the implementation of
IPIA. Part II requires each agency’s inspector general to review the agency’s improper payment
reporting in its annual performance and accountability report or annual financial report and
accompanying materials in conjunction with its fiscal year 2012 financial statement audit. OMB
Circular A-123, appendix C, part III, requires each agency inspector general to review the
accountable official annual report required under section 3(b) of Executive Order 13520.

To complete this work, we interviewed appropriate personnel of OCFO, program representatives,
and HUD quality control study and income match study contractors to gather sufficient
information to evaluate HUD’s plans and the accuracy of the underlying improper payment data.
We assessed HUD’s design and methodology for reviewing programs’ susceptibility to significant
improper payments, evaluated HUD’s efforts in preventing and reducing improper payments for
rental housing assistance programs deemed susceptible to improper payments and HUD’s efforts in
performing recovery audits, and evaluated the accuracy and completeness of information reported in
the agency annual financial report and the accountable official report to the Inspector General.

Additionally, we reviewed HUD’s internal controls, policies, procedures, and practices to
determine the reasonableness of its plans. Lastly, we reviewed the applicable Federal laws,
Executive Order 13520, and the implementing guidance found in OMB Circular A-123,
appendix C, that govern actions needed by the agency to address the issue of improper payments.
We conducted our review from August 2012 to March 2013 at HUD headquarters in
Washington, DC.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               15
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting, and
      Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objectives:

                  HUD’s design and implementation of improper payment internal controls,
                   policies, procedures, and practices and
                  Compliance with Executive Order 13520 and IPIA as amended by IPERA.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiencies

               Based on our review, we believe that the following items are significant deficiencies:

                  Weaknesses in HUD’s IPERA risk assessment methodologies were identified
                   (finding 1).
                  The Office of Multifamily Housing did not accurately measure or enforce
                   compliance with its supplemental measures (finding 2).



                                                 16
                          FOLLOW-UP ON PRIOR AUDITS

Audit Report No. 2012-FO-0005

           In the audit report entitled Annual Evaluation of HUD’s Compliance With the
           Reporting Requirements of the Improper Payments Information Act of 2002,
           Executive Order 13520, and Office of Management and Budget Circular A-123
           Implementing Guidance, dated March 15, 2012, we recommended that OCFO
           develop a methodology for estimating the dollar amount of potential improper
           payments when performing the risk assessment by considering unsupported and
           ineligible costs in OIG’s and independent public accountants’ audit reports.
           OCFO did not agree with our recommendations, and no changes were made to its
           methodology. In addition, we recommended obtaining clarification from OMB as
           to what constitutes the expenditures that should be included when testing for
           improper payments and for calculating the total gross error rate. OCFO agreed
           and made changes to the calculation of the error rate by excluding certain rental
           housing assistance program expenditures that were not part of the quality control
           study on improper payments.




                                           17
                        APPENDIX



        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation     Auditee Comments




Comment 1




Comment 2




                           18
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




Comment 5




Comment 6




                         19
                         OIG Evaluation of Auditee Comments

Comment 1   HUD did not concur with our findings; however, generally agreed to implement
            the recommendation documented in our report. While HUD generally complied
            with IPERA, the findings show that significant changes are needed to ensure the
            objectives of IPERA are fully met. As HUD has generally agreed to implement
            our recommendations, we believe that HUD recognized the need for improvement
            in its risk assessment process.

Comment 2   HUD did not concur with our finding that its risk assessment did not adequately
            assess the risk of improper payments. However, OIG believes that HUD’s failure
            to reassess its risk assessment design for over a decade is not negated by OMB’s
            guidance as stated in HUD’s response. The methodology formulated by PwC was
            intended for use by all entities but should be tailored to fit the business operations
            of its user. Therefore, it is the responsibility of the user agency to ensure that the
            design is structured in such a way that accurate results are determined and meet
            the objectives of the purpose for which it is intended. OIG is in no way
            suggesting that HUD should not adhere to OMB’s guidance but rather it should
            make the utmost effort to meet, if not exceed, the objectives of IPERA.

Comment 3   HUD generally concurred that its current risk assessment methodology of
            assigning a high rating to one risk factor would not result in an overall high rating
            unless other factors are also rated high or close to high. However, HUD would
            not be able to accomplish this task for its fiscal year 2013 assessment. OIG
            believes the risk assessment methodology should be reassessed for fiscal year
            2013 to ensure HUD’s ability to meet the objectives of IPERA.

Comment 4   HUD did not concur with our finding but agreed to reevaluate the weights placed
            on each risk factor for the fiscal year 2014 risk assessment. However, OIG
            believes the risk assessment methodology should be reassessed for fiscal year
            2013 to ensure HUD’s ability to meet the objectives of IPERA.

Comment 5   We updated the language in the report to read, “EIV system limitations hindered
            its ability to accurately measure it supplemental target goals.”

Comment 6   While usage rates have increased, the EIV system limitations preclude
            Multifamily Housing from accurately measuring usage rates. Additionally,
            measuring all of the supplemental measures requires significant compensating
            procedures. The usage rate figures presented are not reliable because they are not
            representative of the entire population, as stated in the report. As mentioned in
            the report, only 18% of the population of properties were used in developing
            usage rates.

            The Quality Control and Income Study were conducted in FY 2011, and our audit
            covered FY 2012 Improper Payment reduction efforts. Office of Management
            and Budget Circular A-123 Appendix C, (p.30) tasks us to “evaluate the accuracy

                                             20
and completeness of agency reporting, and evaluate agency performance in
reducing and recapturing improper payments. For example, when reviewing the
program improper payment rates, corrective action plans, and improper payment
reduction targets, the Inspector General should determine if the corrective action
plans are robust and focused on the appropriate root causes of improper payments,
effectively implemented, and prioritized within the agency, to allow it to meet its
reduction targets." Based on our audit, we determined that the supplemental
measure rates that Multifamily Housing reports to OMB are not entirely accurate,
and therefore cannot be relied upon without significant compensating efforts to
validate the reports. Further, we determined that its corrective actions were not
robust because Multifamily Housing did not adequately enforce compliance with
its target goals. Consequently, we consider this to be a significant deficiency.




                                21
